                             TESTIMONY OF

                          MICHAEL CARROLL,

                    ACTING INSPECTOR GENERAL,

         U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                              BEFORE THE

      SUBCOMMITTEE ON CONTRACTING OVERSIGHT OF THE

        SENATE COMMITTEE ON HOMELAND SECURITY AND

                      GOVERNMENTAL AFFAIRS



  “THE COMPREHENSIVE CONTINGENCY CONTRACTING REFORM
                      ACT OF 2012”



                            APRIL 17, 2012


      Chairman McCaskill and Ranking Member Portman, and members of

the Subcommittee, I am pleased to appear before you to testify on behalf of

the Office of Inspector General (OIG) of the U.S. Agency for International

Development (USAID).        I welcome this opportunity to discuss the
Comprehensive Contingency Contracting Reform Act of 2012 (S. 2139) and

how it relates to our oversight responsibilities for overseas contingency

operations. We support efforts by the Subcommittee to reform and enhance

the effectiveness of contingency contracting and generally agree with the

direction of the bill. Feedback on specific provisions of this legislation is

included in my testimony.

      Oversight in contingency settings is an important feature of our work.

We have provided oversight in conflict and post-crisis situations for decades.

Our staff has demonstrated tireless commitment to strengthening the

effectiveness, efficiency, and integrity of USAID’s development and

reconstruction assistance programs by repeatedly responding in the wake of

natural disasters and during active military engagements.

      Our unique mix of Civil and Foreign Service personnel enables us to

respond rapidly to emerging oversight needs by immediately deploying staff

on the ground while maintaining key support services and institutional

knowledge at home. We currently provide effective oversight in conflict

and post-crisis settings in Afghanistan, Haiti, and Iraq.

      Drawing on a strong in-country presence in Iraq and Afghanistan, we

provide comprehensive audit coverage of USAID programs and implement a

vigorous investigative program. From the start of reconstruction efforts in


                                      -2-
Iraq and Afghanistan in fiscal year (FY) 2003 through the end of the second

quarter of FY 2012, our office issued more than 300 audits and reviews of

USAID programs and activities and made 462 recommendations to USAID

managers to improve their programs. We supervised financial audits of

more than $6 billion in expenditures. Meanwhile, our investigations led to

157 administrative actions (e.g., contract cancellations or employee

terminations), 25 indictments, and 21 convictions and pleas. In total, our

work in these countries has produced more than $437 million in sustained

questioned costs, funds put to better use, and investigative savings and

recoveries.

      Rigorous audit and investigative work by our staff in Iraq and

Afghanistan has translated into net returns on our oversight spending. For

each dollar we have obligated in these countries, we have returned nearly

$11 to the government in the form of sustained questioned costs and funds

put to better use as well as investigative savings and recoveries.

      The results of our work in contingency environments have only served

to underscore the very risks to U.S. taxpayer dollars that the Subcommittee

is seeking to address with this legislation. Security conditions often hamper

program implementation and complicate monitoring and evaluation efforts.

Pressures to quickly demonstrate tangible program results sometimes


                                     -3-
overcome planning requirements with the result that too many programs fail

to meet their objectives or produce sustainable development gains. Surging

personnel needs and frequent staff rotations contribute to shortcomings in

compliance, weaknesses in contract oversight, and diminished internal

controls.

      Over the past 2 years, 68 percent of our performance audits and

reviews in Iraq and Afghanistan have found significant problems with the

direction of the programs we examined. Our December 2011 review of the

USAID Local Governance and Community Development Project in

Afghanistan, for example, highlighted serious deficiencies in project

procurement practices, including procurements that were noncompetitive

and inadequately documented, and identified nearly $7 million in questioned

costs. Meanwhile, our audit last month of the USAID Electoral Technical

Assistance Program in Iraq found that, after 7 years and more than $100

million in expenditures, a key strategic objective of the program—to help

establish Iraqi processes and institutions capable of managing electoral

events—had not been met. Iraq’s Chief Electoral Officer and other high-

level officials acknowledged that the Independent High Electoral

Commission could not function without continuing assistance and did not

have plans or systems in place to provide for its future sustainability. We


                                   -4-
also reported last month in our audit of the Sustainability of Selected

USAID-funded Information Technology Systems in Iraq that 10 of 24

systems, with an aggregate value of $62 million, were not completed, not

functional, or not used by the Government of Iraq as intended.

      In addition to presenting greater challenges to program execution,

contingency settings are also host to high-stakes operations. The success or

failure of our development assistance efforts in these settings critically

affects our national security interests. The anti-fraud hotline we established

in Pakistan should serve as a model to combat fraud in future contingency

environments. In January 2011, the OIG and USAID/Pakistan launched a

very successful anti-fraud hotline in Pakistan, facilitating the reporting of

allegations of fraud, waste, and abuse in English, Urdu, Pashto, Sindhi and

Balochi by phone, conventional mail, email, and through a web-based

interface on the hotline website, www.anti-fraudhotline.com. The OIG is

solely responsible for investigating these complaints and taking appropriate

measures to address them. This hotline has been widely advertised and

received 2,368 calls in FY 2011 with between 72 and 80 calls received each

week. Allegations are uploaded to the hotline database for review by the

OIG for action.




                                    -5-
      We welcome the Subcommittee’s focus on improvements to

contingency contracting, and are pleased to note that the Comprehensive

Contingency Contracting Reform Act seeks to address a number of

challenges that we have encountered in our work, including suspension and

debarment, the pricing of goods and services, oversight of sub-contractors,

U.S. jurisdiction for certain crimes committed by contractors or their

employees abroad, and trafficking in persons.

      One topic addressed by the legislation that has been a major focus of

attention for our office in recent years is suspension and debarment. In late

2009, we audited USAID’s suspension and debarment program and

observed a number of problems with Agency practices and decision-making

processes. USAID had not considered the use of suspension and debarment

in many circumstances that would have warranted the use of these

authorities and had taken suspension and debarment actions in response to

only nine investigations in four years.         Even when USAID pursued

suspension and disbarment actions, it did not always enter related

information into the Federal database of excluded parties or document the

actions that it took. Finally, in 20 of 54 cases that we examined, USAID

could not establish that it had performed required checks on suspension and




                                    -6-
debarment information during the bidding and award process to determine

eligibility for awards.

      We made a dozen recommendations to correct these problems and

have intensified our engagement with Agency suspension and debarment

personnel to encourage the exercise of suspension and debarment authorities

where appropriate. In response to one of our recommendations, USAID

established and staffed a dedicated unit in its Office of Acquisitions and

Assistance with a singular focus on suspension and debarment and

compliance issues. Whereas in 2009 USAID had no staff with a primary

focus on suspension and debarment, the Agency now has a division with

eight acquisition, assistance, and audit positions supported by an attorney

from its Office of the General Counsel to handle these matters and other

contractor accountability functions.

      This change and an increased commitment by USAID’s leadership to

hold implementing partners accountable have produced noticeable results.

While USAID scarcely used suspension and debarment in years past,

USAID reported that in FY 2011 it took 63 suspension or debarment actions

(suspension, proposed and actual debarments). This year, the Agency is on

pace to exceed that total.       Perhaps more significantly, USAID has

demonstrated a willingness to hold its implementing partners accountable


                                       -7-
regardless of their size. One particularly high-profile case demonstrated the

Agency’s commitment. In late 2010, after we provided evidence of serious

corporate mismanagement, misconduct, and a lack of internal controls on the

part of the Academy for Educational Development, USAID took the

extraordinary step of suspending the firm—one of USAID’s largest

implementing partners—from future Federal awards.

      The changes that USAID has implemented in the structure of its

suspension and debarment program have reinforced accountability in

development assistance.    In recent years, we believe that USAID has

generally exercised appropriate discretion in applying suspension and

debarment authorities.

      Based on the positive change that we have observed in USAID’s use

of suspension and debarment, we are cautious about the approach being

taken with this legislation. Any new requirements for agencies to apply

suspension and debarment should be carefully structured so as not to

jeopardize ongoing investigations or penalize firms that are working with us

to address corporate or employee fraud. Changes to the Federal Acquisition

Regulation that would mandate the suspension of contractors in all cases in

which they or their employees are charged with a crime or civil fraud, have

the potential to limit agency discretion in counterproductive ways.


                                    -8-
Exceptions may be necessary in fraud cases involving employees that are

brought to the attention of the U.S. government by the contractors

themselves, or in which a non-negligent contractor may be unaware of the

fraud. Even where there is widespread, significant fraud, there may be

situations in which suspension would not be in the best interest of the U.S.

government - for example in instances involving open and ongoing criminal

investigations. In cases in which the contractor has already taken corrective

actions, instituted appropriate controls, and established its present

responsibility, it may be counterproductive to take suspension or debarment

actions.

      Once suspension and debarment actions have been taken, they must

be properly considered by acquisitions and assistance personnel along with

data on firms’ past performance and integrity. This information is a key

consideration in the contracting process and can help the Government make

better contracting decisions and spend taxpayer dollars more wisely. For

this reason, we are encouraged to see provisions in the bill that seek to

clarify past performance reporting requirements.

      The legislation seeks to strengthen the independence of USAID’s

suspension and debarment staff and increases the accountability of Agency

procurement officials.     By separating the suspension and debarment


                                    -9-
personnel from the Office of Acquisition and Assistance (OAA), the bill

enhances the posture to undertake suspension and debarment actions without

any real or perceived conflict of interest. Under the bill, OAA’s role in

overseeing the procurement functions that guide USAID’s development and

reconstruction contracts, grants, and agreements also receives the heightened

visibility   and   accountability   that        contracting—including   overseas

contingency contracting—deserves by establishing a direct reporting

relationship with the Administrator.

       The pricing of goods and services is another key consideration in

contingency contracting. We have found many cases in which USAID

implementing partners have overpaid and excessive payments sometimes

form the basis for criminal schemes involving kickbacks and procurement

fraud. For example, in our November 2011 audit of USAID/Afghanistan’s

Afghanistan Stabilization Initiative for the Southern Region, we found that

the contractor paid more than $18,000 each month per vehicle to rent 13

armored vehicles when our audit staff obtained quotes for vehicle rentals

ranging from $13,000 to $14,000. Greater transparency and availability of

pricing information could help reduce related waste.          With access to a

database of pricing information in contingency settings along the lines




                                       - 10 -
proposed in S. 2139, contracting staff would be in a better position to

identify cost savings and reduce waste.

      Contingency     operations    make     for   challenging   accountability

environments. Security conditions delay monitoring activities and prevent

evaluators from conducting impromptu site visits.          Subcontractors are

sometimes insulated from day-to-day oversight by layers of sub-awards.

Local court systems that may still be developing basic capabilities are, in

many cases, the only venues available for prosecuting the crimes that we

uncover.    In this context, additional measures to reinforce contractor

accountability are welcome. By clearly establishing U.S. civil jurisdiction

for certain crimes committed by contractors or their employees abroad and

by strengthening contractor accountability for trafficking-in-persons

violations in the Federal Acquisition Regulation, S. 2139 promises needed

improvements.

      While our military service members, diplomats, and development

professionals face the greatest difficulties operating in contingency settings,

oversight work by OIGs is not without its challenges. The Comprehensive

Contingency Contracting Reform Act includes welcome provisions intended

to help address these challenges.




                                    - 11 -
      The principal challenges we face as an OIG in responding to the

intensive oversight requirements of a contingency operation relate to staffing

and funding.     When contingencies arise, we reset our priorities and

reallocate budgetary and personnel resources accordingly. We work quickly

to establish a strong in-country presence by deploying our experienced cadre

of Foreign Service auditors and investigators, and increasing awareness of

our efforts to combat fraud, waste, and abuse through aggressive outreach.

      Under zero-sum staffing and budgeting conditions, increased

oversight in contingency settings means less oversight elsewhere in USAID

OIG’s $31.5 billion oversight portfolio for development assistance. When

we have had to reassign resources to support contingency operations, we

have not lost sight of our other responsibilities. Fortunately, in past years,

we have received dedicated appropriations for our oversight work in

Afghanistan, Iraq, and Haiti, and have successfully maintained needed

oversight of other important areas such as global health, democracy and

governance, and education. From FY 2003 through the second quarter of

FY 2012, nearly 85 percent of our performance audits were accomplished in

countries other than Iraq or Afghanistan, demonstrating our ability to

provide concurrent oversight of both traditional USAID operations and

USAID work supporting contingency operations, made possible through


                                    - 12 -
additional funding from dedicated appropriations for these contingency

operations. Additional funding to support oversight activities during future

contingency operations is essential for the USAID OIG to continue the

quality and scope of our oversight of USAID programs and activities around

the world.

      In 2010, Congress provided us with enhanced personnel authorities

that give us vital surge capacity. Unfortunately, our enhanced personnel

authorities will begin to expire at the end of this fiscal year, constraining our

operations. Section 103 of the Comprehensive Contingency Contracting

Reform Act of 2012 offers relief through a provision that would allow us to

hire temporary employees and bring aboard reemployed annuitants for up to

5 years. The enactment of these provisions would enable us to respond to

emerging oversight requirements without the need for Congress to

periodically reauthorize special OIG personnel authorities during future

contingency operations.

      However, in providing new personnel authorities, the legislation

appears to address only the rehiring of Civil Service annuitants. While Civil

Service annuitants currently provide important assistance to our office in

Afghanistan, Haiti, and Iraq, we would also benefit from the international

experience of retired Foreign Service officers during future contingency


                                     - 13 -
operations. Most of our reemployed annuitant positions filled under current

personnel authorities to provide oversight in Iraq, Afghanistan, and Haiti, are

done so with Foreign Service investigators. Accordingly, if the legislation

addressed the hiring of reemployed Foreign Service personnel as well, it

would greatly enhance our ability to respond to the pressing personnel

requirements of contingency operation oversight.

      The public has a vital interest in transparency regarding contingency

operations.   Routine reporting helps keep the Congress and the public

informed of key aspects of these operations. We recognize the importance

of this reporting, and for that reason we publish quarterly and semiannual

reports on our oversight efforts in Afghanistan, Pakistan, and Iraq. With

respect to Pakistan, we also coordinate the development of a report on the

progress of the U.S. Government’s civilian assistance program that also

details oversight plans and activities.      The Comprehensive Contingency

Contracting Reform Act of 2012 includes a requirement for similar quarterly

reporting, akin to the current requirements for the Special Inspector Generals

for Iraq and Afghanistan, on the part of inspectors general during

contingency operations.

      The legislation also seeks to establish a framework for the

coordination of contingency oversight. Under S. 2139, the chair of the


                                    - 14 -
Council of Inspectors General on Integrity and Efficiency (CIGIE) would

designate a lead inspector general for a given overseas contingency

operation from among the Inspectors General for the Department of

Defense, the Department of State, and USAID.            The designated lead

inspector general would, in turn, be responsible for (1) conducting oversight

of areas over which none of the statutory inspectors general have principal

jurisdiction,   (2)   determining   principal   jurisdiction   for   oversight

responsibilities in areas of overlapping jurisdiction, (3) authorizing the

employment of temporary employees and annuitants by inspectors general in

support of contingency operations, and (4) reporting to Congress on the

progress of contingency operations and oversight activities. This framework

for coordination is simpler, less bureaucratic, and more streamlined than the

establishment of a new institution to address contingency operations under

other proposals or utilized in Iraq and Afghanistan. This framework relies

on the proven capabilities of the existing statutory OIGs and our strong track

record of working together to ensure oversight of multiagency matters. It

would greatly simplify planning, clarify authorities, and establish

jurisdiction for each OIG and avoid the duplication of efforts, redundancy,

and inefficiencies that the establishment of a Special Inspector General for

Overseas Contingency Operations would generate.


                                    - 15 -
       We also suggest consideration of the formation of a “contingency

operations oversight” subcommittee within CIGIE with representatives of

the Inspectors General from the Department of Defense, the Department of

State, and USAID, to address needs, mediate disputes, and make

recommendations to the CIGIE chair, including the designation of the lead

inspector general. This subcommittee should also request each respective

inspector general to identify work force requirements to support

determination of designation of temporary staff and rehired annuitants by the

lead inspector general, as specified in the legislation, as well as serve as a

forum for discussing oversight lessons learned from contingency operations.

       Thank you for this opportunity to address the Subcommittee. We are

encouraged by your continued attention to the important challenges that

contingency operations present. We look forward to continuing to work

with Congress and the Administration to meet these challenges and

capitalize on opportunities to advance national security while saving

taxpayer’s dollars. I would be happy to answer any questions you may have

at this time.




                                    - 16 -
